No. 19-648
IN THE SUPREME COURT OF THE UNITED STATES
CACI PREMIER TECHNOLOGY, INC., PETITIONER
v.
SUHAIL NAJIM ABDULLA AL SHIMARI, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES AS AMICUS CURIAE, via e-mail and first-class
mail, postage prepaid, this 26th day of August 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 5,963 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
August 26, 2020

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 26, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0648
CACI PREMIER TECHNOLOGY, INC.
SUHAIL NAJIM ABDULLA AL SHIMARI, ET AL.

SHEREEF HADI AKEEL
AKEEL & VALENTINE, PC
888 WEST BIG BEAVER RD.
TROY, MI 48084
248-269-9595
BAHER AZMY
CENTER FOR CONSTITUTIONAL RIGHTS
666 BROADWAY
7TH FLOOR
NEW YORK, NY 10012
212-614-6464
BAZMY@CCRJUSTICE.ORG
LAWRENCE S. EBNER
CAPITAL APPELLATE ADVOCACY PLLC
1701 PENNSYLVANIA AVE, NW
SUITE 200
WASHINGTON, DC 20006
202-729-6337
LAWRENCE.EBNER@CAPITALAPPELLATE.C
OM
PETER A. NELSON
PATTERSON BELKNAP WEBB & TYLER LLP
1133 AVENUE OF THE AMERICAS
NEW YORK , NY 10036
JOHN F. O'CONNOR
STEPTOE & JOHNSON LLP
1330 CONNECTICUT AVE., N.W.
WASHINGTON, DC 20036
202-429-3000

THEODORE B. OLSON
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, N.W.
WASHINGTON , DC 20036
202-955-8500
TOLSON @GIBSONDUNN.COM
DANIEL L. RUSSELL
COVINGTON & BURLING LLP
ONE CITYCENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001
202-662-6000
DRUSSSELL@COV.COM
JEENA SHAH
CUNY SCHOOL OF LAW
2 COURT SQUARE
LONG ISLAND CITY, NEW YORK, NY 11101
PHILIP L. WILLMAN
PRESIDENT DRITHE VOICE OF THE DEFENSE
BAR
222 SOUTH RIVERSIDE PLAZA
CHICAGO, IL 60606
312-795-1101
PWILLMAN@BJPC.COM

